Report No. D-2011-059         April 8, 2011




Army Commercial Vendor Services Offices in Iraq
  Noncompliant with Internal Revenue Service
          Reporting Requirements
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CAGE                          Commercial and Government Entity
CAPS-C                        Computerized Accounts Payable System-Clipper
CCR                           Central Contractor Registration
CVS                           Commercial Vendor Services
DFAS                          Defense Finance and Accounting Service
DoD FMR                       DoD Financial Management Regulation
FMC                           Financial Management Center
FMCOM                         U.S. Army Financial Management Command
IRS                           Internal Revenue Service
OMB                           Office of Management and Budget
SOP                           Standard Operating Procedure
U.S.C.                        United States Code
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                                       April 8, 20 II

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
                         AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Army Commercial Vendor Services Offices in Iraq Noncompliant
         with Internal Revenue Service Reporting Requirements
         (Report No. 0-20 I 1-059)


We are providing this report for your information and use. Army Commercial Vendor Services
personnel in Iraq processed service-related entitled payments totaling $1.28 billion from
January I, 2006, through December 31, 2008. Army Commercial Vendor Services personnel did
not take action to file Federal information returns with the Internal Revenue Service for an
estimated $351.92 million of incorrectly coded domestic contractor payments for services and an
estimated $248.66 million of potentially incorrectly coded contractor payments for services
rendered. We considered management comments on a draft of this report when preparing the
final report.


Management comments conformed to the requirements of DoD Directive 7650.3. We received
comments from the Acting Director, Standards and Compliance, Defense Finance and
Accounting Service; the Commander, U.S. Army Financial Management Command; and the
Director, Financial Management Center on recommendations made to this repOit. The comments
and actions were responsive and no further comments are required.


We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                            fJ� am�
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Financial Management and Reporting
Report No. D-2011-059 (Project No. D2009-D000FH-0292.000)                                  April 8, 2011

               Results in Brief: Army CVS Offices in Iraq
               Noncompliant with Internal Revenue Service
               Reporting Requirements
                                                        occurred because the DoD FMR did not include
What We Did                                             all reporting requirements for Federal
We determined whether Army Commercial                   information returns that Federal laws specify. In
Vendor Services (CVS) in Iraq complied with             addition, Army financial management officials
Federal tax reporting requirements for payments         did not have SOPs for filing Federal information
made to contractors supporting operations in            returns. As a result, Army CVS offices did not
Southwest Asia. Our audit focused on                    comply with Federal laws for filing Federal
15,093 service-related entitled payments                information returns.
(payments) totaling $1.28 billion that Army
CVS offices in Iraq processed through the               What We Recommend
Computerized Accounts Payable System-Clipper            DFAS should establish SOPs for correctly
(CAPS-C) from January 1, 2006, through                  coding contractor domain status and distribute
December 31, 2008.                                      the annual quality assurance plan for tax filing
                                                        procedures to U.S. Army Financial Management
What We Found                                           Command.
Of 14,699 payments, Army CVS personnel
incorrectly coded domestic contractors as foreign       U.S. Army Financial Management Command
in CAPS-C for an estimated 316 payments                 should develop SOPs for filing Federal
totaling an estimated $351.92 million, and may          information returns and update training to
have incorrectly coded domestic contractors as          address coding contractor domain status,
foreign in CAPS-C for an estimated                      completing CAPS-C data fields, and preparing
5,054 payments totaling an estimated                    CAPS-C tax files.
$248.66 million. This occurred because Defense
Finance and Accounting Service (DFAS) and               The Financial Management Center should
Army financial management officials did not             implement procedures for filing Federal
establish standard operating procedures (SOPs)          information returns, update training to address
for coding contractor domain status. In addition,       coding contractor domain status and producing
Army financial management officials did not             CAPS-C tax files, and correctly code domestic
adequately train Army CVS personnel to code             contractors and issue Federal information returns
contractor domain status. As a result, Army             for reportable payments made by Army
CVS personnel did not take action to file Federal       CVS offices from January 1, 2006, forward.
information returns with the IRS for an estimated
$351.92 million of incorrectly coded contractor         Management Comments and
payments and an estimated $248.66 million of            Our Response
potentially incorrectly coded contractor                All management comments and actions were
payments.                                               responsive to the recommendations, and we do
                                                        not require additional comments.
Army CVS personnel coded some contractors as
domestic for 394 payments in CAPS-C;
however, Army CVS offices did not file the
Federal information returns or send the
CAPS-C tax file to the DFAS Tax Office. This


                                                    i
Report No. D-2011-059 (Project No. D2009-D000FH-0292.000)                           April 8, 2011


Recommendations Table
        Management                Recommendations            No Additional Comments
                                 Requiring Comment                   Required
Director, Defense Finance and                               A.1, B.1
Accounting Service
Commander, U.S. Army                                        A.1, A.2.a, A.2.b, B.2.a,
Financial Management                                        B.2.b, B.2.c
Command
Director, Financial Management                              A.1, A.2.a, A.2.b, B.3.a,
Center                                                      B.3.b, B.3.c




                                         ii
Table of Contents

Introduction                                                                      1

      Audit Objective                                                             1
      Background on Army CVS Office Tax Reporting                                 1
      Internal Controls Not Effective for Tax Processing                          3

Finding A. Contractor Domain Status Incorrectly Coded in CAPS-C                   4

      Army CVS Offices Processed Payments for Domestic Contractors Through
          CAPS-C                                                                  4
      Vendor Pay Personnel Code Contractor Domain Status as Domestic or Foreign   4
      Army CVS Personnel Need Procedures and Training to Code Contractor
          Domain Status                                                           6
      Conclusion                                                                  7
      Recommendations, Management Comments, and Our Response                      8

Finding B. Army CVS Offices Should Have Filed Federal Information Returns
           for Domestic Contractors                                               10

      Completing and Filing Federal Information Returns is Necessary for Tax
          Reporting Compliance                                                    10
      Army CVS Offices Should Have Filed Federal Information Returns for
          Contractors Coded as Domestic                                           11
      Conclusion                                                                  14
      FMCOM and FMC Management Actions                                            14
      Recommendations, Management Comments, and Our Response                      15

Appendices

      A. Scope and Methodology of Audit                                           18
             Prior Coverage of Federal Information Return Reporting and
              Army CVS Office Tax Reporting                                       19
      B. 2008 Form 1099-MISC, “Miscellaneous Income”                              21
      C. Statistical Sampling Methodology                                         22

Management Comments

      Defense Finance and Accounting Service                                      25
      Department of the Army                                                      29
Introduction
Audit Objective
The objective of the audit was to determine whether the Commercial Vendor Services
(CVS) offices in Iraq complied with Federal tax reporting requirements for payments to
contractors in support of operations in Southwest Asia for calendar years 2006 through
2008. See Appendix A for the scope and methodology and prior audit coverage related to
this report. See Appendix B for a copy of the 2008 Form 1099-MISC, “Miscellaneous
Income.” See Appendix C for detailed information about the work performed by our
Quantitative Methods and Analysis Division.

Background on Army CVS Office Tax Reporting
From January 1, 2006, through December 31, 2008, Army CVS offices in Iraq
processed 15,093 service-related entitled payments totaling $1.28 billion through
multiple stand-alone Computerized Accounts Payable System-Clipper (CAPS-C)
entitlement systems. 1 The payments were for services contracts with domestic and
foreign contractors. Contractors with a domestic domain status are:

    •   individuals who are U.S. citizens or resident aliens of the United States, or
    •   corporations or partnerships created or organized in the United States.

Foreign contractors are individuals, corporations, or partnerships that do not meet the
criteria to be domestic contractors.

Contractors with a domestic domain status receiving eligible payments should receive a
Federal information return form. The Internal Revenue Service (IRS) uses Federal
information returns to identify taxpayers who failed to file an income tax return as well as
those who failed to report all their income. Federal information returns are a powerful
tool for encouraging voluntary tax reporting compliance and detecting underreported
income. According to a prior audit report by the Government Accountability Office, the
IRS does not know the extent of payer noncompliance with Federal information return
reporting requirements. 2 However, according to the IRS National Taxpayer Advocate in
a statement before the U.S. Senate Subcommittee on Taxation and IRS Oversight,
July 2006:

               Where payments are subject to withholding, the reporting compliance
               rate is 99 percent. Where payments are subject to third-party
               information reporting (e.g., interest and dividend income), reporting
               compliance is the neighborhood of 96 percent. But where there is little



1
 From this point forward, service-related entitled payments will be referred to as “payments.”
2
 Government Accountability Office Report No. GAO-09-238, “Tax Gap: IRS Could Do More to Promote
Compliance by Third Parties with Miscellaneous Income Reporting Requirements,” January 2009.


                                                  1
                  to no information reporting, compliance plummets dramatically to
                  somewhere in the range of about 50 percent overall.

Operations and Functions of Army Financial Management Units
Army financial management operations personnel make commercial vendor and
contractual payments. Financial management functions include:

      •   making payments on certified vouchers; and
      •   developing fiscal guidance and ensuring that regulatory guidelines, directives, and
          procedures are adhered to.

Army financial management functions occur at the strategic, operational, and tactical
levels. At the strategic level, the U.S. Army Financial Management Command
(FMCOM) 3 is responsible for oversight and policy of Army finance operations. At the
operational level, the Financial Management Center (FMC) links strategic and tactical
financial management and is the principal advisor to the theater commander on all
aspects of finance operations. FMC provides technical oversight of all theater finance
operations, including Army CVS offices. Its oversight includes developing financial
management policy and procedures for theater implementation.

At the tactical level, Army financial management companies coordinate and execute
financial management support within the FMC’s area of operations. Financial
management support functions include ensuring that all operational elements of the
financial management company and subordinate financial management detachments
adhere to regulatory guidelines, directives, and procedures. Financial management
detachments are responsible for providing timely and accurate payment for contractor
and commercial vendor services, disbursing, and funding support.

Army CVS offices are usually financial management detachments. They are responsible
for preparing, auditing, and processing vouchers for supplies, equipment, and services
purchased by the Government. Army CVS personnel in Iraq use the CAPS-C automated
entitlement system, which can receive input electronically or manually based on
submitted contracts and invoices, such as those for security services. CAPS-C produces
vouchers for contracts and can generate a tax file of contractors required to receive
Federal information returns. Army CVS personnel can then either:

      •   self-file the Federal information returns; or
      •   send the CAPS-C tax file to the DFAS Tax Office, and the DFAS Tax Office will
          file the Federal information returns.

Federal Information Return Reporting Requirements
Section 6041, title 26, United States Code (26 U.S.C. § 6041 [2007]), requires reporting
certain payments made by a person or the U.S. Government if they total at least $600 in a


3
    Prior to May 1, 2010, FMCOM was designated the U.S. Army Finance Command.

                                                    2
taxable year. Section 6041A, title 26, United States Code (26 U.S.C. § 6041A [2008]),
requires reporting payments for services totaling at least $600 in a calendar year. Further,
26 U.S.C. § 6041A (2008) specifically requires Federal executive agencies, such as DoD,
to report payments to corporations for their services. The agency reporting the payments
provides a copy of the Federal information return to the IRS, as well as to the contractor.
The IRS uses Federal information returns to match amounts paid to contractors to what
the contractors report on their annual income tax returns. Federal Acquisition
Regulation 4.904, “Reporting payment information to the IRS,” 26 U.S.C. § 6041 (2007),
and 26 U.S.C. § 6041A (2008) require payers, including Government agencies, to use
Federal information return Form 1099 to report contractor payments for services. See
Appendix B for the 2008 Form 1099-MISC, “Miscellaneous Income.”

IRS instructions require reporting payments totaling at least $600 for services (including
parts and materials). Reportable items include payments for:

   •   rent, such as vehicle and equipment leases;
   •   services, such as advertising, equipment maintenance, and other professional
       services; and
   •   medical and health care, such as exam and hospital fees.

DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR),
volume 10, chapter 6, “Federal, State, Local, and Foreign Taxes,” requires disbursing
offices to report certain payments to the IRS. However, the DoD FMR required
disbursing offices to report payments totaling at least $600 to a contractor in a calendar
year only if they made the payments to noncorporate contractors for services or to
corporations providing medical and health care services. In September 2009, DoD FMR,
volume 10, chapter 6, was updated to require reporting of payments for services when
made to individuals, sole proprietorships, partnerships, or corporations.

Internal Controls Not Effective for Tax Processing
We determined that internal control weaknesses existed in the Army CVS offices’
Federal information return reporting process, as defined by DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. Army
CVS offices lacked internal controls to correctly code contractors’ domain status in
CAPS-C. In addition, Army CVS offices did not have adequate internal controls to file
Federal information returns or provide tax files to DFAS Tax Office for filing. We will
provide a copy of the report to the senior official responsible for internal controls in the
Department of the Army.




                                              3
Finding A. Contractor Domain Status
Incorrectly Coded in CAPS-C
From January 1, 2006, to December 31, 2008, Army CVS personnel incorrectly coded the
contractor domain status of domestic contractors as foreign during the vendor pay process
and may have incorrectly coded the contractor domain status of other domestic
contractors as foreign. This occurred because DFAS, FMCOM, and FMC did not
establish formal standard operating procedures (SOPs) for Army CVS personnel to
correctly code the domain status of contractors in CAPS-C. In addition, FMCOM and
FMC did not adequately train Army CVS personnel to code contractor domain status.

As a result, Army CVS personnel did not take action to file Federal information returns
for an estimated 316 incorrectly coded payments, totaling an estimated $351.92 million,
to the IRS. Further, Army CVS personnel did not take action to file Federal information
returns for an estimated 5,054 potentially incorrectly coded payments, totaling an
estimated $248.66 million, to the IRS. In addition, by not adequately training Army
CVS personnel, FMCOM and FMC did not comply with Office of Management and
Budget (OMB) regulations.

Army CVS Offices Processed Payments for Domestic
Contractors Through CAPS-C
Army CVS offices processed 15,093 payments through CAPS-C systems from January 1,
2006, through December 31, 2008. 4 Of the 15,093 payments, system-identified foreign
contractors received 14,699 payments, and system-identified domestic contractors
received 394 payments. A statistical sample from the 14,699 payments in CAPS-C
was used to test voucher packages to determine whether all of the contractors in the
sample were correctly coded as foreign in CAPS-C. The group of 394 payments to
system-identified domestic contractors was tested separately (see Finding B).

Vendor Pay Personnel Code Contractor Domain Status
as Domestic or Foreign
In the vendor pay process, vendor pay personnel are required to identify a contractor’s
domain as either domestic or foreign. According to 26 U.S.C. § 6041 (2007) and
26 U.S.C. § 6041A (2008), Federal agencies must file Federal information returns for
payments made to corporations, partnerships, and individuals. Additionally, section 1,
title 26, United States Code and section 11, title 26, United States Code apply a tax on
every corporation, partnership, and individual’s taxable income. Foreign entities are
exempt as long as the conduct of trade or business is performed outside of the United
States.



4
 From calendar years 2006 through 2008, CVS offices in Iraq entitled 24,252 payments related to either
goods or services through CAPS-C.

                                                    4
Federal information returns from Army CVS offices are based on information provided in
CAPS-C. When vendor pay personnel enter contractual information in CAPS-C, the
“Foreign Vendor?” field automatically defaults to “No,” establishing the contractor as
domestic. For foreign contractors, vendor pay personnel must override the default and
enter “Yes” in the “Foreign Vendor?” field to establish the contractor as foreign. The
system will only produce Federal information returns for contractors coded as “No”
(domestic) in the “Foreign Vendor?” field. In addition to the “Foreign Vendor?” field,
CAPS-C needs data in the “Amount Indicator” field, which identifies the purpose of the
payment, and the “Corporate Status” field, which identifies the organization type, to
produce Federal information returns.

Vendor pay personnel review information from the contract when entering the
information into CAPS-C. According to DFAS personnel, vendor pay personnel look for
the contractor’s Commercial and Government Entity (CAGE) code on the contract. They
use the CAGE code to search the Central Contractor Registration (CCR) database, the
primary Government repository for contractor information, for the contractor’s domain
status. However, DFAS personnel described different methodologies for determining
contractor domain status when a CAGE code is not provided. To determine a
contractor’s domain status, vendor pay personnel may look at:

   •   the contractor’s name and address, or
   •   the payment currency on the contract.

For example, if both the name and address or the payment currency is foreign, the
contractor is coded as foreign in CAPS-C. It is essential that the identification of the
“Foreign Vendor?,” “Amount Indicator,” and “Corporate Status” fields reflect the actual
status of the contractor because Federal information returns are filed based on
information from the vendor pay systems.

Army CVS Personnel Incorrectly Coded Domestic Contractors
as Foreign in CAPS-C
From January 1, 2006, to December 31, 2008, Army CVS personnel incorrectly coded
domestic contractors as foreign in CAPS-C. Of the 14,699 payments made to
                                       system-identified foreign contractors, an
       From January 1, 2006, to
                                       estimated 316 payments totaling an estimated
       December 31, 2008, Army
                                       $351.92 million were made to domestic
   CVS personnel incorrectly coded
                                       contractors. According to DFAS personnel, for
    domestic contractors as foreign
                                       2008, vendor pay personnel at the Camp Victory
             in CAPS-C.
                                       CVS office routinely coded contractors as foreign
in CAPS-C because the contractors were performing services or providing goods outside
of the United States. For example, a contractor providing services for the Multi-National
Corps-Iraq was coded as foreign in CAPS-C. Although the documents provided did not
list a CAGE code, the name and address of the contractor were domestic, and the
contractor was paid in U.S. dollars. Therefore, by using the methods described by DFAS
personnel, Army CVS personnel should have coded the contractor as domestic. The
contractor was located in the CCR database through a name search and verified as

                                            5
domestic. The payment to this contractor was eligible for a Federal information return.
Army CVS personnel neither issued Federal information returns for an estimated
316 payments to domestic contractors nor took the necessary action to file Federal
information returns for the estimated 316 domestic contractor payments.

Army CVS Personnel May Have Incorrectly Coded Contractors
with an Indeterminable Domain or Reporting Status as Foreign
in CAPS-C
Army CVS personnel may have incorrectly coded contractors as foreign for an estimated
5,054 payments of 14,699 payments, totaling an estimated $248.66 million, from
January 1, 2006, through December 31, 2008. The documents DFAS provided did not
include the information needed to determine whether these payments were possibly
reportable on Federal information returns. The methodologies described by DFAS
personnel also did not lead to a definite domain status of the contractors associated with
these payments.

Army CVS personnel coded contractors with domestic names, foreign addresses, and
payment currency in U.S. dollars as well as contractors with foreign names, foreign
addresses, and payment currency in U.S. dollars as foreign in CAPS-C. For these
contractors, the domain status in the CCR database could not be verified. Some of these
payments were for reportable services; however, a verifiable contractor’s domain status is
necessary to determine whether a Federal information return should be filed. In addition,
for some payments to contractors with an indeterminable domain status, the documents
DFAS provided did not include the information needed to determine whether these
payments were for reportable services.

Army CVS personnel also incorrectly coded domestic contractors as foreign in
CAPS-C when identifying the reporting status. The documents DFAS provided did not
include the information needed to determine whether these payments were for reportable
services. According to documents we reviewed and FMCOM and FMC personnel we
interviewed, Army CVS offices did not issue Federal information returns for these
payments for 2006 through 2008. Therefore, Army CVS personnel did not take action to
file Federal information returns for potentially eligible contractors.

Army CVS Personnel Need Procedures and Training to
Code Contractor Domain Status
Army CVS personnel incorrectly coded domestic contractors as foreign because DFAS,
FMCOM, and the FMC did not establish formal SOPs to guide personnel responsible for
coding contractor domain status. Additionally, FMCOM did not ensure that the
FMC and Army CVS personnel were properly trained to code contractor status. As a
result, Army CVS personnel did not take action to file Federal information returns for an
estimated $351.92 million of incorrectly coded payments and may not have taken action
to file Federal information returns for an estimated $248.66 million of potentially
incorrectly coded payments to the IRS.


                                            6
Army CVS Personnel Did Not Have Procedures to Correctly
Code Contractor Domain Status
                                       DFAS, FMCOM, and FMC did not establish
  DFAS CAPS-C manuals . . . do
                                       formal SOPs for CAPS-C vendor pay personnel to
    not specify how to correctly
                                       correctly code the contractor domain status. Army
  code contractors as domestic or
                                       Field Manual No. 1-06 states that DFAS is
              foreign.
                                       responsible for DoD finance and accounting
policies, procedures, standards, and systems operated by deployed financial management
units. DFAS CAPS-C manuals require vendor pay personnel to code contractor domain
status but do not specify how to correctly code contractors as domestic or foreign. In
addition, FMCOM and FMC did not establish SOPs for vendor pay personnel to code
contractor domain status.

Army CVS Personnel Did Not Have Adequate Training to
Correctly Code Contractor Domain Status
FMCOM and FMC did not ensure that Army CVS personnel were properly trained to
correctly code contractor domain status in CAPS-C. According to OMB Circular
No. A-123, management must clearly support appropriate human capital policies for
training and uphold the need for personnel to possess and maintain the proper knowledge
and skills to perform their assigned duties. Based on training materials, Army CVS
personnel were instructed to complete certain entries for contractors based on their
domain status. However, the training materials did not provide specific guidance on
coding the contractor domain status. As a result, FMCOM and FMC did not comply with
OMB Circular No. A-123 requirements to ensure that Army CVS personnel had the
proper training, knowledge, and skills to perform their duties. Without providing
adequate training to Army CVS personnel, the risk of miscoding increases.

Conclusion
From January 1, 2006, to December 31, 2008, Army CVS personnel incorrectly coded the
contractor domain status of domestic contractors as foreign during the vendor pay
process. Specifically, Army CVS personnel incorrectly coded domestic contractors as
foreign in CAPS-C, which did not provide accurate information for filing Federal
information returns.

DFAS, FMCOM, and the FMC should have established formal SOPs for Army
CVS personnel to code contractor domain status. In addition, FMCOM and FMC should
have ensured that Army CVS personnel were properly trained to code contractor domain
status. Because Army CVS personnel did not have formal SOPs or adequate training,
they did not code contractor domain status correctly. As a result, Army CVS personnel
did not take action to file Federal information returns with the IRS for an estimated
$351.92 million of incorrectly coded payments and an estimated $248.66 million of
potentially incorrectly coded payments from 2006 through 2008.




                                           7
Recommendations, Management Comments, and Our
Response
A.1. We recommend the Director, Defense Finance and Accounting Service, in
conjunction with the Commander, U.S. Army Financial Management Command,
and the Director, Financial Management Center, establish formal standard
operating procedures to guide Army Commercial Vendor Services personnel in
correctly coding the contractor domain status as either domestic or foreign in the
Computerized Accounts Payable System-Clipper.

DFAS Comments
The Acting Director, Standards and Compliance, DFAS agreed, stating that DFAS has
completed a quality assurance plan. According to the Acting Director’s comments, the
quality assurance plan advises Army CVS personnel how to:

   •   know which payments are reportable on tax documents,
   •   code payments,
   •   work the yearly Form 1099-MISC report, and
   •   generate the final yearly file.

The Acting Director reviewed the SOP that FMCOM personnel completed and
recommended they issue the SOP to all applicable sites with some supplemental material.

Our Response
The Acting Director, Standards and Compliance, DFAS, comments were responsive,
meeting the intent of the recommendation. No further comments are required from
DFAS.

FMCOM and FMC Comments
The Commander, U.S. Army Financial Management Command, and the Director,
Financial Management Center, did not comment on the recommendation.

Our Response
Although the Commander, U.S. Army Financial Management Command, and the
Director, Financial Management Center, did not respond, they took action and developed
SOPs, which DFAS reviewed, to guide Army CVS personnel in coding the contractor
domain status. Therefore, their actions were responsive, meeting the intent of the
recommendation. No further comments are required from U.S. Army Financial
Management Command and Financial Management Center.




                                           8
A.2. We recommend that the Commander, U.S. Army Financial Management
Command and the Director, Financial Management Center:

   a. Incorporate procedures in the Computerized Accounts Payable
   System-Clipper training program for deploying Army Commercial Vendor
   Services personnel to correctly code the contractor domain status.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary stated that training has been
modified to strengthen tax reporting procedures by correctly coding U.S. vendors.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive, meeting the intent of the recommendation. No further comments are required
from the Army.

   b. Establish a time-phased plan to review all payments to contractors in Iraq
   from January 1, 2006, forward to correctly code domestic contractors that are
   eligible for a Federal information return, and report the results of the review to
   the DoD Office of Inspector General.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary commented that work is in
progress with FMC and DFAS to review CVS databases to identify U.S. vendors subject
to tax reporting from 2006 through 2008. The Deputy Assistant Secretary also stated that
work is ongoing with CAPS programmers to identify reportable payments in theater
CAPS databases.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive, and the stated actions meet the intent of the recommendation. In addition, we
commend the Army for its work with CAPS-C support personnel to:

   •   identify reportable payments in-theater CAPS-C databases and
   •   produce accurate Forms 1099-MISC.

We do not require any further comments from the Army.




                                            9
Finding B. Army CVS Offices Should Have
Filed Federal Information Returns for
Domestic Contractors
From January 1, 2006, through December 31, 2008, Army CVS offices in Iraq did not
file or use the DFAS Tax Office to file Federal information returns for 363 potentially
reportable payments from a total 394 payments made to system-identified domestic
contractors. This occurred because the DoD FMR did not include all reporting
requirements specified in Federal laws for Federal information returns. Further,
FMCOM and FMC did not have processes for filing Federal information returns.
Specifically, FMCOM and FMC did not:

   •   establish SOPs for Army CVS personnel to file Federal information returns, or
   •   adequately train deploying Army CVS personnel on their responsibilities to
       complete necessary data entry or to file Federal information returns.

As a result, Army CVS offices did not comply with Federal laws to file Federal
information returns for payments made to domestic contractors. Therefore, Army
CVS personnel did not take action to file Federal information returns with the IRS for up
to $37.54 million of contractor payments.

Completing and Filing Federal Information Returns is
Necessary for Tax Reporting Compliance
Army CVS personnel in Iraq use CAPS-C to authorize vendor payments. CAPS-C can
generate a tax file of contractors required to receive a Federal information return. Army
CVS personnel can then either self-file the Federal information returns or send the
CAPS-C tax file to the DFAS Tax Office, and the DFAS Tax Office will file the Federal
information returns.

The DFAS Tax Office is responsible for coordinating the issuance of all DoD Federal
information returns. Annually, the DFAS Tax Office develops a quality assurance plan
for Federal information return processing. It also develops, maintains, and issues
policies, procedures, guidelines, and manuals on the tax reporting process. Other
functions include:

   •   advising DFAS executives on matters relating to Federal information return
       reporting to the IRS for DFAS contract and vendor pay systems;
   •   managing a centralized process for filing all Federal information returns for
       contract and vendor payments made by DFAS; and
   •   establishing and monitoring a system of internal controls to ensure Federal
       information return reporting is accurate, complete, and in compliance with laws
       and regulations.


                                            10
Federal information return reporting involves providing one copy of the return to the IRS,
as well as one copy to the contractor. Filing Federal information returns is important for
                                        tax reporting compliance. As the IRS National
  . . . tax reporting compliance is
                                        Taxpayer Advocate described in a statement before
    only about 50 percent overall
                                        the U.S. Senate Subcommittee on Taxation and IRS
        when there is little to no
                                        Oversight in July 2006, tax reporting compliance is
         information reporting.
                                        about 96 percent when payments are subject to
third-party information reporting. However, tax reporting compliance is only about
50 percent overall when there is little to no information reporting.

Army CVS Offices Should Have Filed Federal
Information Returns for Contractors Coded as Domestic
From 2006 through 2008, Army CVS offices in Iraq processed 15,093 payments, totaling
$1.28 billion, potentially related to services through CAPS-C. 5 Of the 15,093 payments,
Army CVS personnel coded the contractors as domestic for 394 payments totaling
$42.82 million. 6 Of the 394 payments to system-identified domestic contractors,
363 payments totaling $37.54 million may have been eligible for Federal information
return reporting because:

      •    the payments aggregated to at least $600 in a calendar year for each of the
           system-identified domestic contractors, and
      •    the system-identified domestic contractors receiving the payments potentially
           provided reportable items.

See the Figure on page 12 for a breakdown of the payments processed by Army
CVS offices in Iraq.




5
    In the Figure, this amount is $1,277.82 million ($1,235 million + $42.82 million).
6
    The results of our sample for the remaining 14,699 payments (15,093 – 394) are discussed in Finding A.

                                                     11
             Figure. Payments Processed by Army CVS Offices in Iraq,
                   Calendar Years 2006-2008 (dollars in millions)




       Payments for System-Identified Foreign Contractors – 14,699 ($1,235)
       Payments for System-Identified Domestic Contractors – 394 ($42.82)
       Potentially Reportable Payments for System-Identified
       Domestic Contractors – 363 ($37.54)
       Non-Reportable Payments for System-Identified Domestic
       Contractors – 31 ($5.28)

Army CVS offices in Iraq did not file Federal information returns for the 363 payments
made to system-identified domestic contractors. They also did not send the CAPS-C tax
file to the DFAS Tax Office for filing. The Table shows, by year, the total number and
amount of payments potentially eligible for Federal information return reporting.

                       Table. Payments Potentially Eligible
               for Federal Information Return Reporting, 2006-2008
            Year      Number of Payments     Total Amount of Payments
                                                      (millions)
          2006                   75                      $4.67
          2007                  120                        2.97
          2008                  168                      29.90
           Total                363                     $37.54

For example, 2 of the 363 payments were made to a Washington, D.C.-based corporation
specializing in management consulting services. The contractor received the two
payments totaling approximately $1.28 million as payment for various polling services in
Iraq, including surveys, public opinion polls, and focus groups. Army CVS offices did
not report these payments, as well as other potentially eligible payments, because from
2006 through 2008, DoD regulations did not include all Federal information return
reporting requirements specified in Federal laws. In addition, FMCOM and FMC had not
established processes for filing Federal information returns. Specifically, they did not
establish SOPs for or provide adequate training to Army CVS personnel on their
responsibility for filing Federal information returns. As a result, Army CVS offices did
not file required Federal information returns for up to $37.54 million of payments.

                                          12
DoD FMR Included Limited Federal Information Return Reporting
Requirements
DoD regulations did not include all reporting requirements specified in
26 U.S.C. § 6041A (2008) for Federal information returns. Specifically,
26 U.S.C. § 6041A (2008) requires Federal executive agencies to prepare a Federal
information return if they pay a corporation $600 or more in a calendar year for services.
DoD FMR, volume 10, chapter 6, required only reporting payments to corporate
contractors if the payments applied to medical or health care services. Consequently,
during calendar years 2006 through 2008, Army CVS personnel did not have adequate
DoD guidance. However, DoD FMR, volume 10, chapter 6, was updated in September
2009 to include all Federal information return reporting requirements. Army
CVS personnel did not comply with Federal laws because they did not take action to file
Federal information returns totaling up to $37.54 million.

Army CVS Offices Need Procedures to File Federal Information
Returns
FMCOM provides oversight and policy for Army finance operations, including FMC.
However, FMCOM did not establish and issue SOPs to FMC on Federal requirements for
Army CVS offices to file Federal information returns. In addition, FMC personnel stated
they were not aware of the Federal requirements to file Federal information returns.
While FMC was responsible for establishing theater standards, including those for Army
CVS offices, it did not establish procedures for Army CVS offices to file Federal
information returns. As a result, Army CVS personnel in Iraq did not take action to file
Federal information returns for 363 payments totaling $37.54 million that may have
required reporting.

                                    To help system operators, such as CVS personnel,
   Because the DFAS Tax Office      file Federal information returns, the DFAS Tax
      cannot interface with the     Office annually develops a quality assurance plan
        stand-alone CAPS-C          for Federal information return processing. The
       entitlement systems, the     quality assurance plan details the processes
  DFAS Tax Office does not know required to complete a review of the CAPS-C tax
    which sites make contractor     file, correct errors and rejects, and complete final
        payments in theater.        processing of the tax file. Because the DFAS Tax
                                    Office cannot interface with the stand-alone
                                    CAPS-C entitlement systems, the DFAS Tax Office
does not know which sites make contractor payments in theater. However, FMCOM is
aware of functional Army CVS offices and could forward the annual quality assurance
plan from the DFAS Tax Office to the appropriate sites.

Army CVS Personnel Need Adequate Training on Completing
Data Entry and Filing Federal Information Returns
FMCOM and FMC did not ensure that Army CVS personnel in Iraq received adequate
training on their responsibilities to complete necessary data entry or to file Federal
information returns with the IRS. FMCOM trained deploying financial management

                                            13
units on core competencies of the financial management mission. FMC coordinated
pre-deployment training with FMCOM for financial management units and was
responsible for ensuring that deploying financial management units received training on
their mission and responsibilities. However, the training did not describe the processes to
identify correct entries for data elements necessary for Federal information reporting,
such as the “Amount Indicator” code and “Corporate Status.”

                                          CAPS-C requires certain entries in the “Amount
  . . . training for deploying Army
                                          Indicator” and “Corporate Status” fields for the
 CVS personnel did not describe the
                                          system to include a payment in the CAPS-C tax
 processes or responsibilities to file
                                          file. Although FMCOM training instructed
    Federal information returns.
                                          Army CVS personnel to complete these fields, it
did not explain how to identify the correct data to input into those fields. The training
also did not explain the importance of completing the fields and their effect on Federal
information return reporting. Further, training for deploying Army CVS personnel did
not describe the processes or responsibilities to file Federal information returns. Army
CVS personnel did not enter the correct data in the “Amount Indicator” and “Corporate
Status” fields for 276 of 363 payments to system-identified domestic contractors.
Therefore, these payments were not included in the CAPS-C tax file.

Conclusion
Army CVS offices did not file Federal information returns or send the CAPS-C tax file to
the DFAS Tax Office for Federal information return filing for 363 potentially reportable
payments made to system-identified domestic contractors. This occurred because
DoD FMR did not include all Federal information return reporting requirements specified
in 26 U.S.C. § 6041A (2008). However, DoD FMR, volume 10, chapter 6, was updated
in September 2009 to include all Federal information return reporting requirements. In
addition, FMCOM and FMC did not establish procedures for Army CVS offices to
ensure that Army CVS personnel took action to file Federal information returns with the
IRS. Further, FMCOM and FMC did not adequately train deploying Army CVS office
personnel on their responsibilities to file Federal information returns. As a result, Army
CVS offices in Iraq did not comply with Federal laws to file Federal information returns
for contractor payments. Army CVS personnel did not take action to file Federal
information returns with the IRS for up to $37.54 million of payments to contractors.

FMCOM and FMC Management Actions
Because of the audit, FMC management became aware of the requirements for filing
Federal information returns and began working with DFAS and financial management
units in Iraq to meet Federal information return reporting requirements.
FMCOM provided instructions to FMC for filing Federal information returns. In
addition, FMCOM provided FMC the DFAS points of contact for additional assistance to
file Federal information returns. Further, FMCOM conducted an initial review of
training on procedures to file Federal information returns. FMCOM plans to perform
additional analysis on including DFAS procedures in FMCOM training. FMC personnel



                                            14
submitted payment records to the DFAS Tax Office for filing of Federal information
returns for 2009. Finally, the DFAS Tax Office created a quality assurance plan for
theater sites for the 2010 tax year.

Recommendations, Management Comments, and Our
Response
B.1. We recommend the Director, Defense Finance and Accounting Service
distribute the Defense Finance and Accounting Service Tax Office Quality
Assurance Plan for Form 1099-MISC Printing and any other annual tax filing
procedures or Defense Finance and Accounting Service Tax Office directives to
U.S. Army Financial Management Command.

Management Comments
The Acting Director, Standards and Compliance, DFAS agreed. The Acting Director
stated that FMCOM identified sites for DFAS, and DFAS then distributed a DFAS Tax
Office quality assurance plan to those sites. The Acting Director indicated that this
allowed DFAS to complete Form 1099-MISC files for 2010. The Acting Director stated
the actions were completed December 15, 2010.

Our Response
The Acting Director, Standards and Compliance, DFAS, comments were responsive, and
the actions meet the intent of the recommendation. No further comments are required.

B.2. We recommend the Commander, U.S. Army Financial Management
   Command:

   a. Develop standard operating procedures requiring Army Commercial Vendor
   Services personnel to produce the Computerized Accounts Payable
   System-Clipper tax file annually and send the tax file to the Defense Finance and
   Accounting Service Tax Office for filing with the Internal Revenue Service.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary stated that a revised SOP
was published and distributed to Army financial management sites. The Deputy
Assistant Secretary indicated that the SOP includes procedures on returning contracts to
issuing contracting offices when the contracts do not include the necessary tax reporting
information.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive, and the actions meet the intent of the recommendation. In addition, we
commend the Army for including procedures in the revised SOPs to address contracts
that lack necessary tax reporting information. No further comments are required from the
Army.

                                            15
   b. Update training for deploying financial management units to include an
   explanation of the requirements for completing the “Amount Indicator” and
   “Corporate Status” data fields in the Computerized Accounts Payable
   System-Clipper.

   c. Incorporate Computerized Accounts Payable System-Clipper tax file
   preparation into training for deploying financial management units and mission
   certification exercises for financial management units.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary stated that training has been
modified to strengthen tax reporting procedures. The training establishes how to:

   •   correctly code U.S. vendors in CAPS-C and
   •   transmit tax files to DFAS.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive, meeting the intent of the recommendations. We do not require any further
comments from the Army.

B.3. We recommend the Director, Financial Management Center:

   a. Implement procedures that require Army Commercial Vendor Services
   personnel to produce the Computerized Accounts Payable System-Clipper tax
   file annually and send the tax file to the Defense Finance and Accounting Service
   Tax Office for filing with the Internal Revenue Service.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary stated that FMC:

   •   worked to make theater finance offices aware of tax filing requirements and
   •   established an SOP for theater vendor pay offices to retrieve tax identification
       numbers from CCR for U.S. vendors.

According to the Deputy Assistant Secretary, once obtained, the tax identification
numbers will be coded in CAPS-C.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive. The stated actions meet the intent of the recommendation, and we do not
require any further comments from the Army.

                                            16
   b. Incorporate Computerized Accounts Payable System-Clipper tax file
   preparation into training and coordinate with U.S. Army Financial Management
   Command training for deploying financial management units.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary commented that FMC’s
internal control staff is conducting training on new SOPs to ensure vendor pay offices are
compliant.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive, and the stated actions meet the intent of the recommendation. We
commend the Army for its work to train theater personnel how to produce accurate
Forms 1099-MISC. No further comments are required from the Army.

   c. File Federal information returns for reportable payments made by Army
   Commercial Vendor Services offices in Iraq from January 1, 2006, forward, and
   report the filed payments to the DoD Office of Inspector General.

Management Comments
The Deputy Assistant Secretary of the Army (Financial Operations) did not state
agreement or disagreement. The Deputy Assistant Secretary responded that there is
continuing work to retrieve disbursement data for U.S. vendors from 2006 forward. The
Deputy Assistant Secretary stated that once the data is available, applicable tax reporting
will be completed.

Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) comments were
responsive, and the stated actions meet the intent of the recommendation. We do not
require any further comments from the Army.




                                            17
Appendix A. Scope and Methodology of
Audit
We conducted this performance audit from November 2009 through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We determined whether Army CVS offices complied with regulations to file Federal
information returns for payments to contractors. We reviewed relevant criteria to
determine the requirements for filing Federal information returns. Specifically, we
identified criteria from the United States Code, IRS instructions, and DoD FMR. In
addition, we reviewed management policies and procedures regarding filing Federal
information returns.

We visited FMCOM in Indianapolis, Indiana, and DFAS offices in Indianapolis, Indiana,
and Rome, New York. We also contacted the DFAS Tax Office at DFAS Columbus.
We conducted interviews with management personnel regarding:

    •   FMC and Army CVS office processes for filing Federal information returns,
    •   vendor pay personnel processes for determining a contractor’s domain status, and
    •   DFAS Tax Office processes for filing Federal information returns.

We also communicated with FMC personnel in theater. We conducted meetings with
management personnel regarding vendor pay personnel’s processes for filing Federal
information returns.

We obtained payment data from the CAPS-C Repository. * We filtered the data based on
the audit scope and requirements for filing a Federal information return. We then
selected a random sample of payments with a system-identified foreign contractor from
the CAPS-C Repository. See Appendix C for more information on the statistical sample.
We randomly selected 213 payments from the CAPS-C Repository. We obtained the
voucher packages relating to the sampled payments from DFAS Rome. We also
reviewed supporting contracts and contractor information. We obtained supporting
contracts from the Electronic Document Access and Electronic Document Management
systems and contractor information from the CCR database.




*
  The CAPS-C Repository consolidates multiple deployed CAPS-C databases into a single CONUS
(continental United States) database.


                                               18
We reviewed the voucher packages to determine whether the payments were reportable
on Federal information returns. We identified reportable payments by reviewing the
voucher packages for contracts with a preponderance of reportable items and contractors
that:

    • had a domestic domain status,
    • were subject to Federal tax reporting, and
    • received at least $600 in a calendar year.

We also identified payments with a system-identified domestic contractor from the
CAPS-C Repository. To determine whether the payments may have been reportable on a
Federal information return, we obtained contractor information from the CCR database.
Payments that may have been reportable included contractors that:

   •   received at least $600 in a calendar year, and
   •   were specified in the CCR database as service providers or were assigned
       standard industry codes in the CCR database containing reportable items.

For all sampled items, we received a record of the Federal information returns filed by
DFAS Tax Office for calendar years 2006 through 2008. We asked Army CVS offices to
provide a record of the Federal information returns they filed for 2006 through 2008. We
compared the payments we determined to be reportable to the Federal information returns
filed by DFAS Tax Office and Army CVS offices.

Use of Computer-Processed Data
We used the CAPS-C Repository to select our sample of payments to contractors in Iraq.
In addition, we used the CCR database to gather additional information about contractors.
Further, we used the Electronic Document Access and Electronic Document Management
systems to obtain contracts for the sampled payments. We tested the accuracy of the data
during our sampling process by comparing the data from the CAPS-C Repository to the
source vouchers. The data was sufficiently reliable for the purpose of our review.

Use of Technical Assistance
The DoD Office of Inspector General Quantitative Methods and Analysis Division
assisted with the audit. See Appendix C for detailed information about the work
performed by the Quantitative Methods and Analysis Division.

Prior Coverage of Federal Information Return Reporting
and Army CVS Office Tax Reporting
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the Army Audit Agency (AAA) have issued
eight reports discussing Federal information return reporting and DoD payments to
contractors by Army CVS offices in Southwest Asia. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be


                                           19
accessed over the Internet at http://www.dodig.mil/audit/reports. Unrestricted Army
reports can be accessed from .mil and gao.gov domains over the Internet at
https://www.aaa.army.mil/.

GAO
GAO Report No. GAO-09-238, “Tax Gap: IRS Could Do More to Promote Compliance
by Third Parties with Miscellaneous Income Reporting Requirements,” January 2009

GAO Report No. GAO-08-266, “Tax Administration: Costs and Uses of Third-Party
Information Returns,” November 2007

GAO Report No. GAO-07-742T, “Tax Compliance: Thousands of Federal Contractors
Abuse the Federal Tax System,” April 19, 2007

DoD IG
DoD IG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait, and Egypt,” May 22, 2008

AAA
AAA Report No. A-2010-0062-ALL, “Controls Over Vendor Payments – Southwest
Asia (Phase II),” March 16, 2010

AAA Report No. A-2010-0057-ALL, “Controls Over Vendor Payments – Southwest
Asia (Phase II),” February 24, 2010

AAA Report No. A-2010-0012-ALL, “Controls Over Vendor Payments – Southwest
Asia (Phase II),” January 5, 2010

AAA Report No. A-2009-0173-ALL, “Controls Over Vendor Payments – Kuwait
(Phase I – U.S. Army Contracting Command, Southwest Asia, Camp Arifjan, Kuwait),”
July 29, 2009




                                          20
Appendix B. 2008 Form 1099-MISC,
“Miscellaneous Income”




Source: Internal Revenue Service




                                   21
Appendix C. Statistical Sampling
Methodology
Sampling Purpose
We used statistical sampling to estimate the number of errors and associated dollar error
of payments in the CAPS-C Repository. A statistical sample allows the sample results to
be projected to the population.

Population
DFAS personnel provided the audit team data from 14 locations in Iraq extracted from
the CAPS-C Repository. The population included 24,252 records in the CAPS-C
Repository, totaling $1,846,415,814. These records represent payments in Iraq to
commercial vendors. Of the 24,252 records, auditors determined 15,093 records,
totaling $1,277,874,038, represented entitlements that could be reportable on a Federal
information return.

Sampling Design
A stratified sample by payment dollars was used. See Table C-1 for the strata breakdown
and number of sample items by stratum.

             Table C-1. Population Breakdown by Value of Payments
        Value of Payment            Total Value     Stratum Size               Sample
                                                                                Size
Value < $10,000                          $27,140,591            7,704            20
$10,000 ≤ Value < $100,000               192,004,032            5,495            30
$100,000 ≤ Value < $1,000,000            478,293,748            1,701            80
$1,000,000 ≤ Value < $5,000,000          316,674,520              160            50
Value ≥ $5,000,000                       263,761,147               33            33
 Total                                $1,277,874,038           15,093           213




                                           22
After the original sample was selected, we identified 394 records in the population that
would be addressed separately. The 394 records related to contractors that were coded in
the CAPS-C Repository as domestic contractors. These records were removed from the
population and seven sample items belonging to the 394 records were removed from the
sample. See Table C-2 for the strata breakdown and number of sample items by stratum
in the revised population.

         Table C-2. Revised Population Breakdown by Value of Payments
       Value of Payment              Total Value    Stratum Size    Sample
                                                                      Size
Value < $10,000                      $26,698,694        7,499          20
$10,000 ≤ Value < $100,000           188,923,333        5,389          30
$100,000 ≤ Value < $1,000,000        455,177,572        1,625          76
$1,000,000 ≤ Value < $5,000,000      306,918,316          154          48
Value ≥ $5,000,000                   257,334,968           32          32
 Total                           $1,235,052,883        14,699         206

Analysis and Interpretation
We project with 90-percent confidence 1 that between 0.3% and 4.6%, with a point
estimate of 2.1%, of the payments in the CAPS-C Repository will have a contractor that
should have been issued a Federal information return but was not. The corresponding
number of payments ranges from 45 through 680, with a point estimate of 316. See
Table C-3 for a summary of this statistical projection.

                               Table C-3. Errors, Rate Projection
                              Lower Bound 2 Point Estimate3 Upper Bound2
                Rate            0.3%*              2.1%           4.6%
                Number             45*              316            680
              * Because the statistically calculated lower bound is negative, the sample
              result is the lower bound. This produces an asymmetric interval and the point
              estimate is not the midpoint of the lower and upper bounds.




1
  The confidence level is a number, stated as a percentage, that expresses the degree of certainty associated
with an interval estimate of a population parameter.
2
  Confidence intervals are an estimate of a population parameter that consists of a range of values bounded
by what are known as the upper and lower bounds.
3
  A point estimate is a statistically based estimate that is a single numerical value.

                                                     23
We project with 90-percent confidence that the dollar value of payments in the
CAPS-C Repository that have a contractor that should have been issued a Federal
information return but was not, is from $282,840,915 through $421,006,585, with a point
estimate of $351,923,750. See Table C-4 for a summary of this statistical projection.

                    Table C-4. Errors, Dollar Value Projection
                       Lower Bound      Point Estimate Upper Bound
             Errors    $282,840,915     $351,923,750    $421,006,585

We project with 90-percent confidence that between 21.4% and 47.4%, with a point
estimate of 34.4%, of the payments in the CAPS-C Repository will have a contractor that
potentially should have been issued a Federal information return but was not. The
corresponding number of payments ranges from 3,144 through 6,964, with a point
estimate of 5,054. See Table C-5 for a summary of this statistical projection.

                  Table C-5. Potential Errors, Rate Projection
                      Lower Bound      Point Estimate   Upper Bound
             Rate       21.4%             34.4%           47.4%
             Number      3,144             5,054           6,964

We project with 90-percent confidence that the dollar value of payments in the
CAPS-C Repository that have a contractor that potentially should have been issued a
Federal information return but was not, is from $185,805,525 through $311,520,193, with
a point estimate of $248,662,859. See Table C-6 for a summary of this statistical
projection.

                Table C-6. Potential Errors, Dollar Value Projection
                           Lower Bound        Point Estimate Upper Bound
         Potential Errors   $185,805,525      $248,662,859    $311,520,193




                                          24
Defense Finance and Accounting Service Comments





                     DEFENSE FINANCE AND ACCOUNTING SERVICE
                                   ARLINGTON
                                     lS51 SOUTH BELL STR E ET
                                    ARLINGTON , VA 222410-15 281




     DFAS-JJ
                                                                                JNI 2 4 2011

     MEMORANDUM FOR DIRECTOR, DEFENSE FINANCIAL AUDITING SERVICE,
                      OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF
                      DEFENSE DoD


     SUBJECT: Management Comments to DoDIG Draft Report, "Anny Commercial Vendor
              Services Offices in Iraq Noncompliant with Internal Revenue Service Reporting
                Requiremenl," Daled December 2 1, 2010, Project D2009-DOOOFH-0292.000


          Attached are management comments to recommendations A.I and B. l for subject report.

                                                            comments your staff may contact


                                 Click to add JPEG file

                                                   Richard D. Davis
                                                   Acting Director, Standards & Compliance


     Attachment:
     As stated




                                              www.dod.mir/dfas
                                        Your Finsncil1l PlJrtner @ Work
      M;ln;l~ement         Com ments to DoOlG Draft Report, "'Anny Co mmercial Vendor Services
                          Otlices in Inlq No ncompliant with Intern a l Rc\'cnuc Sen' ice Hepo rtin g
                         Requ ire menf .... Dated December 21 , 2010, P roject 02009-DOOOFH-U292.000


I~Cl'(lmmendat i on A. I : We      recommend the Director. Defense Finance and ACt;(l uming Service.
ill   c~lIlju l)c tion
                 with lhe Commander. U.s. Army Financial M::magcmcm Command. and me
l\l!11ITIandcr. Financial Management Ccnt(!r: t.'S labli sh formal standard oper'dting procedures 10
t;.uidc Ann., Commercial Vendor Services personnel in correctly codi ng the contractor domain
swtllS us either dOIl1!.!stic or lorcign in the Computerized !\t,;counts Payable System-Clipper.

~'l;ln :Il!.Cml·n t
                 Com ments : Concur. DFAS has co mpleted a Quality Assurance Plan to advise the
.\1'111) Commercial Vendor Services personnel which payments arc reportable on lax documents.
IH"\ lO t.:ode payments. work the yCi.lrly 1099 report. and generate the final yearly Li1c. FINCOM
has completed a draft SOP that will be reviewed by the DFA S.

El'limatcd Comp letion I>at,,:           March 1. 10 11


Recnmmendlltion 11.1: We reconlmend the Director. Defense Finance and Accountin:; Service
dislrihute the Defense Finance and Accollnti ng Servicc Tax Officc Qual ity Assurance Plan for
Fonn 1Q99-M ISC Printing and ilny other annual tax filing procedures or Defense Finance and
                                       Click to add JPEG file
!\t;counting Service Tax Oflice directives to U.S. Army Finnncial Management Command .

Management Comme nts: Com:ur. OFAS distributed the Tax Office Quality Assur.mcc Plan to
nIl :-; iws identilicd by the U.S. Ann)' Financial Management Command December 15.20 10. This
cnabh:d us 10 complete the 1099-Misc files for 2010.

Cu mpiction Date : December 15. 2010
                DEFENSE FINANe!! AND ACCOUNTING SERVICE
                              ARLINGTON
                                '811t SOUTH BELL STREET
                               ARLINGTON , VA 2224().S2et
                                                                 r       _ II" ,


                                                                           1 2011
                                                                                    j,
DFAS·ll


MEMORANDUM FOR DIRECTOR, DEFENSE FINANCIAL AUDITING SERVICE,
                 OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF
                 DEFENSE (DoD)                .

SUBJECT: Management Comments to DoDlG Draft Report, ""Army Commercia] Vendor
         Services Offices in Iraq Noncompliant with Internal Revenue Service Reporting
         Requirement," Dated December 21, 2010, Project D2009-DOOOFH-0292.000


     Attached are managemenl comments to recommendations A. I.

                                                     comments your staff may contact

                            Click to add JPEG file

                                             Richard D. Davis
                                             Acting Director, Standa:ds & Compliance


Attachment:
As stated




                                       www.dod.mil/dfas
                                  Your Fimmel.1 P.rtn~r @ Work
  M~lna l!ement Comments to Do DIG Dra ft Report, "Army Commer cial Vendor Serv ices
               Offices in Iraq oncompJia nt with Intern al R e\'cnu e Service Repo rting
              Requirement," Dated Deccmbcr 21, 2010. Proj ect D2009-DOOOF H-0292.000


Reco mmendation A.l : We recommend the Director. Defense Finance and Accounting Servicu.
in conjunction with the Commander. U.S. Army Financial Manageme nt Command (FINCOM).
and the Commander. Financial Management Center; establish fonnal standard operating
procl:dures to guide Anny Commercial Vendor Services personnel in correctly cod ing the
COnlrilctor domain status ilS either domest ic or foreign in the Computerized Accounts Payable
System-Cli pper.

Prior Ma nagement Co mments: Concur. DF AS has completed a Quality Assurance Plan to
advise the Army Commercial Vendor Services personnel which payments are reponable on tax
documents. how to code payments. 'work the yearly 1099 repon. and generate the final yearly
liIe. FIN COM has completed a draft SOP that will be reviewed by the OF AS.

I'rior ICstimatcd Co mpl eti on Uate: March 1,2011

C urrent Ma nagement Co mments : OF AS completed the review of FINCOM 's SOP. OF AS
recommended that FINCOM issue the SOP to all applicable sites with the following
supplemental material: all modules from the Computerized Accounts Payable (CAPS) Clipper
                             Click to add JPEG file
lrJining including the Tax Table Maintenance Procedures, the DFAS Tax Office Quality
Assurance Plan and criteria for what is/is not reportable, OF AS procedures for registering a
Vcndor in the Centralized Electronic Funds Transfer (CEFT) System and instructions on
amllyzing data from the Centml Contractor Registry (CCR).

C om pletion Date: March 1.2011
Department of the Army Comments





                                     DEPARTMENT OF THE ARMY
                               OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                  FINANCIAL. MANAGEMENT AND COMPTROLLER
                                              109 ARMY PENTAGON
                                          WASHINGTON DC 20310·0109
             ~EPLYTD
             ATTENTION OF


                                                                               FEB 09 2011
      MEMORANDUM FOR Inspector General, Department of Detense, 400 Army Navy
      Drive, Arlington, Virginia 22202-4704

      SUBJECT: Army Commercial Vendor Services (CVS) Offices in Iraq Noncompliant with
      Internal Revenue Service Reporting Requirements (Project No. D2009-DOOOFH-
      0292.000)


      1. Reference subject draft audit report, dated December 21,2010.

      2. We have reviewed subject report and agree that prior to tax year 2009 the Army
      CYS offices in the contingency theater of operations were not performing informational
      tax reporting for those U.S. non-corporate vendors being paid locally for services
      provided in support of military forces. We are awaning details from the auditors on the
      363 payments identified in the report. It is our understanding from the audit team that
      the larger projection of 5,054 potential errors was based on criteria which included all
                                 Click to add JPEG file
      payments made in US Dollars regardless of vendor name or address. Although the
      scope of the audit did not incorporate the end-to-end process, we believe the root cause
      of errors in capturing and reporting this data starts with initial creation of a contract with
      the vendor. Specific responses by recommendation are attached.




      Enol
                                         Deputy




                                       P n,""d III   ® R""~cleO   Pape,
             Department of Defense Inspector General Draft Report for
              The Audit of Army Commercial Vendor Services Offices
                In Iraq Noncompliant with Internal Revenue Service
                             Reporting Requirements
                         (Project D2009-DOOOFH-0292.000)

          Deputy Assistant Secretary of the Army (Financial Operations)
                 Response to the Draft Audit Recommendations


DoDIG Recommendation A.2: We recommend ttlat the Commander, U.S. Army
Financial Management Command and the Commander, Financial Management Center:

    a. Incorporate procedures in the Computerized Accounts Payable System-Clipper
training program for deploying Army Commercial Vendor Services personnel to correctly
code the contractor domain status.

   b. Establish a time-phased plan to review all payments to contractors in Iraq from
January 1, 2006, forward to correctly code domestic contractors that are eligible for a
Federal information return, and report the results of the review to the DoD Office of
Inspector General.
                          Click to add JPEG file
Management Response: Pre~deployment training has been modified to strengthen
informational tax reporting procedures and establishing the correct code to identify US
vendors when applicable. In conjunction with the Financial Management Center in
Kuwait and the Defense Finance and Accounting SelViee, individual commercial vendor
selVices' databases are being centrally reviewed and manipulated to isolate potential
U.S. vendors subject to informational tax reporting beyond those already reported to the
Internal Revenue SelVics for 2009 forward. We are working with the CAPS
programming staff to identify reportable payments in the CAPS databases from theater
in order to report them when tax identification can be obtained.



DoDIG Recommendation B.2: We recommend that the Commander, U.S. Army
Financial Management Command:

    a. Develop standard operating procedures requiring Army Commercial Vendor
Services personnel to produce the Computerized Accounts Payable System (CAPS)-
Clipper tax file annually and send the tax file to the Defense Finance and Accounting
Service Tax Office for filing with the Internal Revenue Service.

   b. Update training for deploying financial management units to include an
explanation of the requirements for completing the "Amount Indicator" and "Corporate
Status" data fields in the Computerized Accounts Payable System)-Clipper.




                                           .   ,.
    c, Incorporate Computerized Accounts Payable System~Clipper tax file preparation
into training for deploying financial management units and mission certification
exercises for flnanclal management units.

Management Response: A revised Standing operating procedure (SOP) has been
published and furnished to the Army financial management network. As recommended
by the auditors, the SOP incorporates returning contracts to the issuing contracting
office when the vendor has a U,S. address but the requisite tax reporting information is
not included. We modified pre-deployment training to strengthen informational tax
reporting procedures through establishing the correct code to identify US vendors in the
Computerized Accounts Payable System-Clipper when applicable, and transmission of
files to the Defense Finance and Accounting SeNice.


DoDIG Recommendation 8.3: We recommend that the Commander, Financial
Managernent Center:

    a. Implement procedures that require Army Commercial Vendor SeNices personnel
to produce the Computerized Accounts Payable System-Clipper tax file annually and
send the file to the Defense Finance and Accounting SelVice Tax Office for filing with
the Internal Revenue Service.
                          Click to add JPEG file
    b. Incorporate Computerized Accounts Payable System- Clipper tax file preparation
into training and coordinate with U.S. Army Financial Management Command training
for deploying financial management units.

   c. File Federal information returns for reportable payments made by Army
Cornrnercial Vendor Services Offices frorn January 1, 2006, forward, and report the filed
payrnents to the DoD Office of Inspector General.

Management Response: The 266th Financial Management Center (Theater) made
theater finance offices aware of the tax filing requirements in November 201 0, when
they assumed responsibility from the 326th FMC. Since then, the 2661h FMC has
directed a standard operating procedure for all vendor pay offices in the OND/OEF
theaters requiring finance units to retrieve US vendor tax identification numbers (TIN)
from the Central Cont:actor Registry (CCR). Once obtained, the TINs will be coded into
CAPS-C. Internal Control teams of the 266th FMC are conducting training on the new
SOP and will ensure its compliance as they make routine technical reviews of vendor
pay offices. Efforts to retrieve US vendor disbursernent data from 2006 forward are
ongoing; applicable tax reporting will be done as that data becomes available .




                                           .   ,.
